                        AUDIT REPORT ON THE MARYLAND


                   SMALL BUSINESS DEVELOPMENT CENTER


                              REPORT NO. 7-6-H-001-006


                                   FEBRUARY 6, 1997





THIS REPORT MAY CONTAIN PROPRIETARY INFORMATION SUBJECT TO THE PROVISIONS OF 18 USC 1905. DO NOT

RELEASE TO THE PUBLIC OR ANOTHER AGENCY WITHOUT PERMISSION OF THE OFFICE OF INSPECTOR GENERAL.

                              AUDIT REPORT ON THE MARYLAND

                            SMALL BUSINESS DEVELOPMENT CENTER


                                               TABLE OF CONTENTS


                                                                                                                                   PAGE


MANAGEMENT MEMORANDUM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii


SUMMARY          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii


INTRODUCTION


        A.	     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


        B.	     Objectives and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


        C. 	    Prior Audit Resolution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


RESULTS OF AUDIT

        Findings and Recommendations

        1.	     Matching, Allocating, and Expending Funds . . . . . . . . . . . . . . . . . . . . . . . . . . 4


        2.	     Client Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


        3.      Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19


APPENDICES


        A.	     Auditee Comments

        B.	     SBA Management Comments

        C.	     Summary of Questioned Costs

        D.	     Calculation of Required Reimbursement for 1994


        E.	     Calculation of Required Reimbursement for 1995/Summary of Total
                Reimbursement

        F.	     Report Distribution


                                                                   i
                           U.S. Small Business Administration

                               Office of Inspector General

                                 Washington, D.C. 20416





                                                            AUDIT REPORT
                                                    Issue Date: February 6, 1997
                                                    Number: 7-6-H-001-006

TO:	         Allen Stephenson
             District Director
             Baltimore District Office


FROM:	       Peter L. McClintock
             Assistant Inspector General for Auditing

SUBJECT:	 Audit of the Maryland Small Business Development Center

        The Office of Inspector General’s Auditing Division performed an audit of the
Maryland Small Business Development Center for the period October 1, 1993, through
September 30, 1995. The summary section, beginning on page iii, provides a synopsis
of the findings and recommendations.

       The findings included in this report are the conclusions of the Auditing Division
based upon the auditors’ testing of the auditee’s operations. The findings and
recommendations are subject to review and implementation of corrective action by
your office following existing Agency procedures for audit follow-up and resolution.

       Please provide us your management decisions for the recommendations within
80 days. Record your management decisions on the attached SBA Forms 1824,
“Recommendation Action Sheet,” and show either your proposed corrective action and
target date for completion, or an explanation of your disagreement with our
recommendations.

       Should you or your staff have any questions, please contact Victor R. Ruiz,
Director, Headquarters Operations, at (202) 205-7204.




                                            ii
                                         SUMMARY

       We completed an audit of the Maryland Small Business Development Center (SBDC).
The objectives of the audit were to determine whether the Maryland SBDC’s (1) expenditures
were allowable; (2) resources were effectively used to provide counseling assistance to the
small business community; and (3) activities were in conformance with the cooperative
agreements and applicable laws, regulations, and policies.

        Our audit found the Maryland SBDC had problems in providing sufficient cash match,
allocating and expending funds, using resources to effectively provide counseling and training
assistance, and reporting program income. As a result of the audit, the Maryland SBDC
should reimburse SBA $125,803 for insufficient matching funds and unallowable costs.
Specifically, we found the following :

           The Maryland SBDC had a cash match shortfall of $13,635 during 1994. Cash
           match totaled $587,945 although $601,580 was required based on SBA funding of
           $1,203,159.

           The Maryland SBDC incurred and claimed costs totaling $529,827 that were not
           allowable during 1994 and 1995. During the course of the audit, the Maryland
           SBDC acknowledged $152,045 of the costs were unallowable and took appropriate
           corrective action to reduce claimed costs or put the funds to better use by that
           amount. The questioned costs included (1) the salary of a non-SBDC employee,
           (2) paid leave that employees were not entitled to, (3) unrelated and excessive
           travel, (4) improper procurement, (5) excessive indirect costs, and (6) overstated
           and unsupported in-kind match.

           Resources were not always effectively utilized to provide in-depth counseling and
           training assistance. At the Suburban Washington subcenter, (1) counselors spent
           an unreasonable portion of their time on administrative functions, (2) funds
           budgeted for client consulting were used to obtain administrative support, and (3)
           documentation of counseling did not support that counseling was in-depth. A
           statistical sample of Maryland SBDC 1994 and 1995 clients found 19 percent were
           dissatisfied with the counseling received.

           The Suburban Washington subcenter did not report program income totaling
           $27,546 during 1994 and 1995. Also, some financial and programmatic reports
           were submitted late or not at all during 1994 and 1995.

        A draft report was forwarded to the State of Maryland’s Department of Business and
Economic Development (DBED) on December 5, 1996. On December 20, 1996, DBED
officials provided written comments disagreeing with, or stating there was insufficient
information to respond to, some of our findings. In response to clarifying information


                                               iii
provided on January 7, 1997, DBED provided additional written comments on January 8,
1997. We have evaluated and considered DBED’s comments in finalizing our report.
DBED’s written comments (excluding Attachments) are included as Appendix A.

        On January 30, 1997, we received written comments from SBA’s Baltimore District
Office. SBA Baltimore District Office officials generally agreed with the findings,
conclusions, and recommendations. We have evaluated and considered the written comments
in finalizing our report. The written comments (excluding Attachments) are included as
Appendix B.

        We recommend that the District Director of the Baltimore District Office require the
State Director of the Maryland SBDC to ensure that (1) future cash match requirements are
met; (2) SBA is reimbursed a net of $125,803 for insufficient cash match and questioned
costs; (3) future costs are reasonable, allocable, and allowable; (4) subcenters maintain
complete and accurate documentation to support reported in-kind match; (5) written goals,
policies, and procedures are established to increase counseling hours and reduce
administrative time; (6) consulting funds are used for direct assistance to clients and not for
administrative functions; (7) counselors sufficiently document counseling sessions; (8)
subcenters report program income accurately and use it to further SBDC program objectives;
and (9) financial and programmatic reports are submitted timely.

        The findings included in this report are the conclusions of the Auditing Division based
on the auditors' testing of operations. The findings and recommendations are subject to
review, management decision and corrective action by your Office in accordance with
existing Agency procedures for audit follow-up and resolution.




                                                iv
                                       INTRODUCTION


Background

        The Small Business Development Center (SBDC) Program is a partnership between
the U.S. Small Business Administration (SBA) and recipient organizations to provide quality
assistance to small businesses to promote growth, expansion, innovation, increased
productivity, and management improvement. This is accomplished through counseling,
training, and specialized support. In addition, SBDCs act in an advocacy role to promote
local small business interests.

        SBA funds SBDCs through cooperative agreements that link the resources of Federal,
state, and local governments with those of colleges, universities, and the private sector.
SBDC networks include a lead center and various subcenters. In order to qualify for
assistance, an SBDC network must provide matching funds equal to the total amount of SBA
funding. At least 50 percent of the match must be in the form of cash.

       The SBDC Program is governed by the individual cooperative agreements; Title 13 of
the Code of Federal Regulations (13 CFR), Parts 130 and 143; SBA Standard Operating
Procedure (SOP) 60-16; SBA annual program announcements; Office of Management and
Budget (OMB) Circulars A-21, “Cost Principles for Educational Institutions,” A-87, “Cost
Principles for State, Local, and Indian Tribal Governments,” and A-110, “Uniform
Administrative Requirements for Grants and Agreements with Institutions of Higher
Education, Hospitals and Other Non-Profit Organizations.” SBA’s Baltimore District Office
monitors the Maryland SBDC.

         The Maryland SBDC was established in 1988 and is part of the State of Maryland’s
Department of Business and Economic Development (DBED). The Maryland SBDC network
consists of a lead center and subcenter in Baltimore (Central) and four other subcenters in
Cumberland (Western), Landover (Suburban), Waldorf (Southern), and Salisbury (Eastern).
The subcenters are located at sponsoring local government agencies and educational
institutions. The sponsoring organizations are commonly referred to as host institutions.
Each host institution maintains a separate set of accounting and financial policies, procedures,
and systems.




        The Maryland SBDC budget for 1994 and 1995 (ending September 30) is shown in
the following chart:


                                                1

                                               1994                1995
               Federal Share               $1,225,043           $1,452,617
               Non-Federal Share              1,306,965          2,108,903
               Total                       $2,532,008           $3,561,520



Objectives and Scope

       The objectives of the audit were to determine whether the Maryland SBDC’s

           (1) expenditures were allowable;

           (2) resources were effectively used to provide counseling assistance to the small
               business community; and

       (3) activities were in conformance with the cooperative agreements and applicable
           laws, regulations, and policies.

       The audit covered operations of the Maryland SBDC from October 1993 through
September 1995. Fieldwork was conducted from November 1995 through October 1996 and
was performed at the lead center and Suburban Washington subcenter located in Landover,
Maryland. We judgmentally selected the Suburban Washington subcenter based on the large
amount of dollars budgeted to it. We also mailed counseling confirmations to clients of all
subcenters except those of the Eastern subcenter (see next paragraph).

         Audit procedures included (1) interviewing SBDC network, State of Maryland, and
host institution personnel; (2) examining program income accounts, client files, training files,
cash match, in-kind match, and expenditures; (3) evaluating the quality and quantity of
SBDC-provided counseling; and (4) reviewing financial transactions for allowability. To
determine the effectiveness and quality of assistance provided to clients, we selected a
statistical sample of 420 clients from the 5,257 reported to SBA as counseling cases
by the SBDC during the period October 1993 to September 1995. Due to the Eastern
subcenter’s inability to produce addresses of their counseling clients, only 366
confirmations were mailed. We received 172 responses. We also received 57
confirmations marked "return to sender" with no forwarding address because the
individuals did not reside at the address listed by the SBDC. The remaining 137
confirmations issued were not returned. For other transactions tested, we judgmentally
selected items based on large dollar amounts and other identified audit risks. The audit was
performed in accordance with Government Auditing Standards.


                                                2

Prior Audit Resolution

      This was our first audit of the Maryland SBDC.




                                            3

                                  RESULTS OF AUDIT


FINDING 1 MATCHING, ALLOCATING, AND EXPENDING FUNDS


        The Maryland SBDC was short $13,635 in matching funds in 1994 and costs totaling
$529,827 were unallowable in 1994 and 1995. The Small Business Act requires SBDCs to
match SBA funding with cash and in-kind contributions, with cash equaling at least 50
percent of the SBA funding. An overmatch occurs when an SBDC obtains more non-Federal
funding than required. With the approval of the Associate Administrator for Small Business
Development Centers, SBDC’s are authorized to use overmatch to offset unallowable costs.
Insufficient and unallowable cash match need only be reimbursed at two thirds of the amounts
to maintain the match requirement. Insufficient and unallowable in-kind match need only be
reimbursed at one half of the amount to maintain the match requirement. OMB Circulars A­
21, A-87, and A-122 provide the principles for determining which costs are allowable under
the cooperative agreement. The State Director of the Maryland SBDC did not adequately
monitor funding to ensure that the matching requirement was met and costs were allowable.
Consequently, the Maryland SBDC is required to reimburse a net of $125,803 as explained in
Appendices D and E.


                                      Matching Funds

       The SBDC did not provide sufficient cash matching funds as required by the Small
Business Act, Section 21(a)(5). The Act requires SBDCs to match SBA funding with cash
equaling at least 50 percent of SBA funding. The Maryland SBDC provided $587,945 in
cash matching funds although $601,580 was required, leaving a shortage of $13,635 as shown
in Appendix D.


                             Allocating and Expending Funds

Salaries

       The cooperative agreements were charged $126,162 for salaries that were not
allocable to the grant. Specifically, we found:

              The SBDC charged the 1994 and 1995 cooperative agreements $123,580 for
              the salary and fringe benefits of a State of Maryland employee who performed
              no SBDC related services. The person's position was the “Maryland with
              Pride” Coordinator. Maryland with Pride is a state program that promotes
              Maryland manufactured products. OMB Circular A-87, Attachment A, Section
              C requires costs to be necessary, reasonable, and allocable in order to be
              allowable under Federal awards. Costs are allocable to a particular cost


                                              4

               objective if the goods or services involved are chargeable or assignable to such
               cost objective in accordance with the relative benefits received. Attachment B,
               Section 11(h)(3) of the circular also requires that when employees are expected
               to work solely on a single Federal award, charges for their salaries will be
               supported by certifications that the employee worked solely on that program.
               We found no such certifications. During the course of the audit, the Maryland
               SBDC acknowledged that the 1994 and 1995 cooperative agreements had been
               incorrectly charged $79,941 and $43,639, respectively for the non-SBDC
               employee and took appropriate corrective action.

               Suburban Washington subcenter counselors received pay for 129 hours of
               leave that they were not entitled to during 1995. The counselors were
               classified as limited term grant-funded employees (LTGF). OMB Circular A­
               87, Attachment B, Section 11(b) states compensation is considered reasonable
               to the extent that it is consistent with that paid for similar work in other
               activities of the host organization. Prince George’s County personnel policies
               state employees occupying LTGF positions are not entitled to pay for time off
               (leave). As a result, the cooperative agreement was overcharged $2,483 in
               1995.

               A lead center employee was paid at an hourly rate that was higher than the
               employee’s contracted amount. Effective April 1, 1995, the employee’s
               contract renewal lowered his pay from $16.83 per hour to $15.62 per hour.
               The host institution’s payroll office started using the new pay rate on April 19,
               1995, or 19 days after the effective date. As a result, the cooperative
               agreement was overcharged $99 in 1995.


Travel and Meals

       The State Director of the Maryland SBDC charged meals, lodging, and local
transportation for out of state travel that was not SBDC related. Also, a meal charge exceeded
allowable amounts. As a result, unallowable costs totaling $224 were charged to the 1995
cooperative agreement.

        In December 1994, the State Director of the Maryland SBDC traveled to Illinois to
attend a training event called “McDonald’s School to Work Project Conference.” Meals,
lodging, and local transportation totaling $195 were charged to the SBDC. The conference
was designed to lay out public relations strategy between Maryland and big business
(McDonald’s) respecting employment issues. The training provided no benefit to the SBDC.
The travel was not included in the 1995 proposal nor was it justified after the fact as required
by the cooperative agreement.



                                                5

        The Maryland SBDC charged an excessive amount for a meal provided to a Maryland
SBDC state advisory board member. Maryland State regulations allow uncompensated
advisory board members to be provided with meals; however, the amount may not exceed
$14. SBDC officials charged $43 for one meal. As a result, $29 was inappropriately charged
to the 1995 cooperative agreement.


Procurement

       The Suburban Washington subcenter received reimbursement for procurements that
(1) were not related to the cooperative agreement, (2) had not been made following required
contracting procedures, and (3) were obtained by the host institution without the SBDC’s
approval. Consequently, $11,400 was inappropriately charged to the 1994 and 1995
cooperative agreements.

        The Suburban Washington subcenter paid $3,000 for publication of a guide that was
outside the scope of the subcenter. In addition, the subcenter did not follow required
procurement procedures when awarding the contract. 13 CFR 143.36 (a) requires grant
recipients to follow the same policies and procedures used for procurement from non-Federal
funds when procuring property and services under a Federal grant. As such, the Suburban
Washington subcenter was required to follow the host institution’s procurement policies.
Prince George’s County requires (a) three bids for contracts more than $1,000, (b) the County
print shop facilities be used for printing, and (c) contracts be awarded by an authorized
individual. None of these requirements were met. The Suburban Washington subcenter
Executive Director stated competitive bidding procedures were not followed because of the
relatively small cost of the contract. As a result, the 1995 cooperative agreement was charged
$3,000 for unallowable costs.

         The Suburban Washington subcenter inappropriately reimbursed the host institution
$8,400 for a portion of a computer maintenance agreement. The agreement covered
computers owned by the host institution as well as the subcenter’s five computers. The host
institution awarded the contract without consulting the subcenter. Besides the fact that the
subcenter did not contract for the service, the amount charged for the maintenance agreement
exceeded the replacement cost of the subcenter’s five computers. Although the subcenter
protested the charges for maintenance because they were more than the cost of replacement, it
paid the amount charged. OMB Circular A-87, Attachment A, Section C(2) states a cost is
reasonable if, in its nature and amount, it does not exceed that which would be incurred by a
prudent person under the circumstances prevailing at the time the decision was made to incur
the cost. As a result, the 1994 cooperative agreement was charged $8,400 for unallowable
costs.


Indirect Costs


                                               6

         Charges to the cooperative agreements for indirect costs exceeded allowable amounts.
 The Maryland SBDC indirect cost rate was established by a June 9, 1994, “Indirect Cost
 Negotiation Agreement” that shows the indirect cost rate was 27.2 percent of total direct
 salaries and wages including vacation, holiday, and sick pay, but excluding other fringe
 benefits. Maryland SBDC officials did not adequately verify the accuracy of indirect cost
 allocations. As a result, indirect costs allocated to the 1994 and 1995 cooperative agreements
 exceeded the allowable amounts by $7,423 and $27,997, respectively. During the course of
 the audit, the Maryland SBDC acknowledged that the 1994 and 1995 cooperative agreements
 had been overcharged for indirect costs and took action to reduce the amounts charged.
 Although the Maryland SBDC’s actions corrected the overcharge for 1994, the 1995
 cooperative agreement still had excessive indirect costs charged totaling $6,955 as shown in
 the following chart.



                             QUESTIONED INDIRECT COST
                      ALLOWABLE      INDIRECT          QUESTIONED   CORRECTIV     OUTSTANDING
        ALLOWABL       INDIRECT        COST             INDIRECT     E ACTION      QUESTIONED
        E SALARIES       COST        CHARGED              COST        TAKEN         INDIRECT
YEAR     & WAGES        @ 27.2%      PER SF 269

1994     $176,729       $48,070       $55,493            $7,423      ($7,423)          $-0­
1995     $199,832       $54,354       $82,351            $27,997    ($21,042)         $6,955
                     TOTAL                               $35,320    ($28,465)         $6,955



 In-Kind Match

         The Suburban Washington subcenter claimed in-kind match totaling $204,368 and
 $158,475 for 1994 and 1995, respectively. The in-kind match consisted of unpaid employee
 overtime, the value of consulting services donated by third parties, and “other” in-kind match.
 Since the subcenter had insufficient supporting documentation, inappropriately claimed
 employee overtime, and overvalued donated consulting services, $356,621 of its claimed in-
 kind match was unallowable.

         The subcenter had no supporting documentation for any of its 1994 and 1995 ”other”
 in-kind match or 1994 donated consulting services, and its documentation for 1994 and 1995
 unpaid employee overtime was incomplete. Title 13 CFR 143.24 (b)(6) states that costs and
 third party in-kind contributions counting towards satisfying a cost sharing or matching
 requirement must be verifiable from the records of grantees and subgrantee or cost type
 contractors. These records must show how the value placed on third party in-kind
 contributions was derived. To the extent feasible, volunteer services will be supported by the
 same methods the organization uses to support the allocability of regular personnel costs.


                                                  7

Consequently, we are questioning $197,621 of the in-kind match claimed by the Suburban
Washington subcenter due to insufficient support.

        The Suburban Washington subcenter’s claimed in-kind match inappropriately included
$140,700 for unpaid employee overtime during 1994 and 1995. Suburban Washington
subcenter employment agreements stipulate that employees be paid hourly up to a maximum
of 40 hours per week. Any hours worked in excess of 40 hours per week were considered to
be in-kind match by the subcenter. Title 13 CFR 143.24 requires in-kind contributions to be
made by third parties. Suburban Washington subcenter officials incorrectly considered
subcenter employees to be third parties when they worked in excess of 40 hours.

        The value of consulting services donated by third parties to the Suburban Washington
subcenter and claimed as 1995 in-kind match was overstated. The subcenter valued donated
consultant hours at $24,523, an average of $99 per hour. Title 13 CFR 143.24 states unpaid
services provided to a grantee will be valued at rates consistent with those ordinarily paid for
similar work in the grantee’s organization. There was no documentation to support that the
donated consulting services were any different from that provided by Suburban Washington
subcenter paid counselors. Suburban Washington counselors were ordinarily paid $19.25 per
hour. Using the $19.25 per hour rate, we determined consulting services donated as in-kind
match for 1995 should have been valued at only $6,222. Consequently, we are questioning
most of the Suburban Washington subcenter’s in-kind match as shown in the following chart:


                             SUBURBAN WASHINGTON
                            QUESTIONED IN-KIND MATCH
                                                          1994                        1995
 VALUE CLAIMED                                                   $204,368                    $158,475
 LESS:
  UNSUPPORTED "OTHER" IN-KIND                  $100,463                     $67,603
  UNSUPPORTED CONSULTING SERVICES              $29,555
  UNPAID EMPLOYEE OVERTIME                     $74,350                      $66,349
  OVERVALUED CONSULTING SERVICES                                            $18,301
   SUBTOTAL                                                      $204,368                    $152,253
 ALLOWABLE IN-KIND MATCH                                             $-0-                     $6,222



Summary

        We found a cash match shortage of $13,635 and questioned $529,827 in unallowable
costs (see Appendix C for details). Corrective action was taken to resolve $152,045 of the
unallowable costs. The Maryland SBDC should reimburse $125,803 for 1994 and 1995 (see
Appendices D and E for details of the calculation).

                                                8

Recommendations:

       We recommend that the District Director of the Baltimore District Office require the
State Director of the Maryland SBDC to ensure that:

1A.	   Future cash match requirements are met.

1B.	   Future costs are reasonable, allocable, and allowable.

1C.	   Subcenters maintain complete and accurate documentation for reported in-kind match.

1D.	   SBA is reimbursed $87,963 for the 1994 cash match shortage and questioned costs
       and $37,840 for 1995 questioned costs.


Auditee’s Response

       DBED agreed with the findings related to cash match, the Maryland with Pride
Coordinator, overpayment of a lead center employee, State Director's travel, indirect costs,
and lack of documentation of Suburban Washington subcenter in-kind match. DBED
disagreed with the following:


Salaries

        DBED attributed the questioned Suburban Washington subcenter counselor leave costs
to incentive compensation, although the accounting system showed payroll.


Procurement

           DBED stated that although procurement policies were not followed, publishing the
           guide was within the scope of the grant. DBED also stated that the cost was only
           $1500.

           DBED stated all county computer equipment is covered by the computer
           maintenance agreement and the subcenter's computers were purchased through the
           county. The maintenance agreement cost was uniformly allocated among county
           operating units.


In-Kind Match


                                                9

           DBED stated that the valuation of donated consulting services does not have to be
           the same as the subcenter's counselors. The services in question were provided by
           individuals (i.e., attorneys, certified public accountants) whose expertise exceeded
           that of subcenter's counselors. DBED stated they used the rate the individuals
           charged in conducting their business.

           In regards to unpaid employee overtime, DBED stated employees are eligible for
           third party status and by working in excess of 40 hours are eligible for
           compensatory time. Since no cash expense was incurred, the contributions were
           non-monetary and met the in-kind match criteria.



Summary

       DBED stated that based on their response, the total questioned cost should be
recalculated.


Evaluation of Auditee's Response

       We revised the report and amount of required reimbursement based on DBED's
removal of the Maryland with Pride Coordinator's cost. We do not agree with the auditee's
conclusions in the following areas:


Salaries

        DBED did not provide any documentation to support their position that the amount
paid was incentive pay in lieu of pay for hours not worked. As stated in the report, employees
are not entitled to pay for hours not worked.


Procurement

           We continue to question the cost of the guide because the contract for the guide
           specifically stated that it was: (1) not within subcenter's scope, (2) on behalf of
           Montgomery County, and (3) a separate revenue funding activity, with receipts
           coming from sale of the guide. Another indicator that the guide was not SBDC
           related, was that the guide did not acknowledge SBA support, whereas, other
           SBDC publications contained the acknowledgment. Also, the subcenter's records



                                               10

        indicate there were two charges of $1,500, however, there was documentation for
        only one of the charges.

        As previously stated, the host institution contracted for maintenance of the
        Suburban Washington subcenter’s computers without the subcenter’s consent. In
        addition to the subcenter not being contractually liable, the amount allocated to the
        subcenter was excessive. Subcenter personnel were of the opinion that it would
        have been more cost effective to purchase new equipment rather than pay for a
        maintenance agreement.




In-Kind Match

        DBED did not provide any documentation to support their position that in-kind
        match was properly valued. Of the 69 cases reviewed, supporting documentation
        indicated 11 of the donors were attorneys and the remaining 58 were either
        counselors or consultants. The Suburban Washington subcenter was unable to
        provide any documentation that detailed the services provided for the 69
        counseling sessions reviewed. Consequently, we were not able to value the
        services higher than the value of Suburban Washington subcenter counselors.
        Also, if the donated services had been adequately supported, DBED’s position
        regarding their allowable value is incorrect. Title 13 CFR 143.24(c)(1), states
        donated services will be valued at rates consistent with those ordinarily paid for
        similar work in the recipient’s organization (i.e., Prince George’s County). Thus, it
        would be inappropriate to value services donated by practitioners at their standard
        hourly rates when the recipient organization has employees that perform similar
        services.

        DBED's statement that unpaid employee overtime is eligible for compensatory
        time is contrary to the employment agreements. An SBA program manager
        surveyed other SBDCs and informed us that the consensus was that unpaid
        employee overtime should not be counted as third party in-kind match. We have
        requested a legal opinion on the issue, and if contrary to our position, will inform
        SBA officials to adjust the reimbursement.


SBA Management’s Response




                                            11

      The District Director of the Baltimore District Office agreed with our
recommendations and stated the findings resulted from inadequate staffing of the Maryland SBDC.


Evaluation of SBA Management’s Response

       The Baltimore District Office’s comments are responsive to our recommendations.




                                            12

FINDING 2 CLIENT SERVICE

        The Suburban Washington subcenter did not always effectively utilize its
resources to provide in-depth counseling and training assistance to small business concerns
and potential entrepreneurs. SBDCs must meet standards established by the Association of
Small Business Development Centers (ASBDC) in order to obtain certification. These
standards require Maryland SBDC counselors to spend at least 50 percent of their time
directly counseling clients. Our review of SBDC counseling and training records, contracted
consulting services, and client survey responses found the following:

           Thirty-six percent of paid counselor time was spent on direct client counseling.

           Ninety percent of consulting events sampled did not directly assist clients.

           Twenty-six percent of client survey respondents stated dissatisfaction with
           Suburban Washington subcenter counseling. (For the entire SBDC network,
           nineteen percent of the respondents stated dissatisfaction with counseling.)

           Documentation was lacking specificity on depth of counseling.

As a result, we concluded the Suburban Washington subcenter did not effectively meet its
major objective to provide small business counseling.

        SBDC policy guidelines emphasize that an SBDC’s primary purpose is to provide in-
depth and high quality management and technical assistance to small businesses and potential
small business owners. The guidelines state that SBDCs should focus on providing quality
assistance to small businesses in areas which promote growth, innovation, increased
productivity, and management improvement. To accomplish this goal, SBDCs utilize SBDC
employees and private consultants depending on the needs of each client.


Use of Counselors and Consultants

           Suburban Washington subcenter counselors spent an unreasonable portion of their
time on administrative functions. Also, contracted consulting services did not directly assist
clients. As a result, the subcenter was not effectively accomplishing its primary purpose,
which is to deliver assistance services to small businesses.

       The Suburban Washington subcenter was unable to achieve the ASBDC counseling
standard because of the unreasonable time spent on administrative tasks. Specifically,
Suburban Washington subcenter counselors spent only 36 percent of their total 1994 and
1995 time on direct client counseling. Suburban Washington subcenter counselors performed
administrative tasks for approximately 40 percent of their total time during 1994 and 1995.


                                               13

According to the subcenter's reporting guidelines, counselors' administrative time consists
entirely of scheduling, responding to Director requests, and reporting time and effort. The
remaining 24 percent of the time had to cover: (1) client related support and travel, (2)
preparing and conducting training sessions, and (3) professional reading (time spent studying
and reading to maintain and expand technical capabilities of counselors, as well as time for
miscellaneous memos and correspondence).

        The Suburban Washington subcenter contracted for consulting services that did not
directly assist clients. The Small Business Act, Section 21(c)(4) requires SBDCs to refer
clients to private consultants for specialized assistance, at SBDC expense, depending on the
unique needs of each client. Moreover, SBA officials stated consulting funds are specifically
designated for direct client assistance. We judgmentally sampled 10 of 26 consultant charges
and found that nine were for subcenter administrative support. Consequently, the Suburban
Washington subcenter was not effectively delivering assistance services to small businesses.


Client Satisfaction

          We received responses from 172 (47 percent) of the 366 clients to whom we
mailed surveys. Of the 172 respondents, 43 were Suburban Washington subcenter
clients. In response to the question “Were you satisfied with the counseling
received?”, 31 of the 161 respondents (19 percent) indicated they were not satisfied
with the counseling received. Eleven (26 percent) of the Suburban Washington
subcenter respondents stated they were dissatified with the counseling received. Of
the 172 respondents, 9 indicated they received no counseling. While we realize not
everyone will be satisfied with services provided, we believe the nature of the
complaints indicates a need for more in-depth counseling and counselor training. The
following are examples of reasons clients were dissatisfied with the counseling
received:

              Six clients stated they needed more in-depth counseling as information
              provided was too general, insufficient, or already known.

              Ten clients believed SBDC personnel were either inexperienced, lacked
              information, appeared disinterested, or were not capable of providing
              adequate assistance.


Counseling Records

       The Suburban Washington subcenter did not provide adequate and sufficient
documentation to show counseling was in-depth. Documentation of counseling sessions did
not provide sufficient written narratives to determine the nature and extent of counseling. As


                                               14

a result, for most of the counseling files reviewed, we were unable to determine if counseling
was in-depth, quality counseling.

       The 1994 and 1995 SBDC Program Announcements require SBDCs to maintain
complete and accurate records and supporting documentation to facilitate a thorough financial
and/or performance audit. The announcements further state SBDCs shall provide high-quality
in-depth, one-to-one counseling to small business owners or prospective small business
owners.

        We selected 40 counseling cases at the Suburban Washington subcenter to determine
whether counseling was adequately documented. Of the 40 cases selected, 29 were
judgmentally chosen from the cases in our mail survey and the remaining 11 from subcenter
files (by selecting every tenth file). Three files could not be located. The lead center was
aware of documentation problems as early as July 1994, but they went uncorrected. Of the 37
files available for review, 28 did not contain a completed counselor’s report and four did not
record counseling hours.

           In one case, the entire counseling file consisted of the one-page client intake form.
           There was no documentation of what transpired in the session. The amount of
           counseling hours was not in the file, yet 1.5 hours of counseling were claimed for
           this client.

           In another case, the counseling write-up consisted of two words, “international
           trade.” No hours were recorded in the file, yet two counseling hours were claimed.


Recommendations:

       We recommend that the District Director of the Baltimore District Office require the
State Director of the Maryland SBDC to ensure that:

2A.	   Written goals, policies, and procedures to increase counseling hours and reduce
       administrative time are established.

2B.	   Consulting funds are used for direct assistance to clients and not for administrative
       functions.

2C.	   Counselors sufficiently document counseling sessions.


Auditee’s Response

       DBED did not fully agree with our finding and responded:


                                               15

Use of Counselors and Consultants

           There are no standards on the percentage of time a counselor devotes to
           scheduling, reporting and other duties deemed “administrative”. However, these
           efforts are necessary to effectively deliver services to clients in an organized
           manner as well as communicate the SBDC activities to the SBA, and therefore are
           largely attributable to counseling.

           There is insufficient information stated in the draft audit report to respond to the
           type of consulting services procured on behalf of the Suburban Washington
           subcenter.


Training Milestones

        There is insufficient information currently available to address whether training reports
were overstated. The Suburban Washington subcenter did not meet all of its planned training
milestones, but milestones represent goals, not mandatory requirements. In addition, the
subcenter exceeded one milestone in fiscal year 1994 and came close on others. It was
difficult to meet milestones during fiscal year 1995 because the director position and a
counselor position were vacant, and the office manager left.


Client Satisfaction

       The suburban Washington subcenter can produce innumerable records that
demonstrate clients’ satisfaction. The Inspector General’s sampling shows a high success
ratio.



Counseling Records

       The Suburban Washington subcenter did not always provide adequate documentation
of counseling sessions.


Evaluation of Management’s Response

        Based on DBED's response, we revised the report to eliminate the finding related to
training milestones. We do not agree with auditee's response in the following areas:


                                                16

Use of Counselors and Consultants

          DBED stated that there are no standards for administrative time and these efforts
          were necessary to deliver client services. As added in the report, the minimum
          required level of direct counseling was 50 percent, thus leaving a maximum of 50
          percent for all other activities including training efforts. The 40 percent
          calculation of counselor administrative time did not include client support,
          information gathering, professional reading, travel, and training.

          We provided the auditee with additional documentation related to improper use of
          consulting funds, however, as of the date of the report, no response was received.


Client Satisfaction

       We agree that 81 percent of survey respondents were satisfied with services, however,
we believe the reasons provided by 19 percent of respondents indicates a need for more in-
depth counseling and counselor training.


SBA Management’s Response

        The District Director of the Baltimore District Office agreed with our
recommendations and stated that direct counseling hours should conform with standards
established by the Association of Small Business Development Centers.



Evaluation of SBA Management’s Response

       The Baltimore District Office’s comments are responsive to our recommendations.




                                             17

FINDING 3 REPORTING

       The SBDC did not properly report program income and submitted untimely financial
and programmatic reports. Specifically, we found the following:


Program Income

       The Suburban Washington subcenter did not always report program income. We
determined that program income totaling $21,806 in 1994 and $5,740 in 1995 went
unreported. The cooperative agreements for 1994 and 1995 stated fees for training were
program income. Failure to report program income could result in program income not being
used to further SBDC program objectives.

        Suburban Washington officials did not consider income derived from the following
events to be program income:

              Training events at the Frederick Community College satellite office.

              Contract reimbursement for training provided to the Montgomery County
              Housing Opportunities Commission.


Financial and Programmatic Reports

        Some required Maryland SBDC financial and programmatic reports were submitted
late and others were not submitted at all during 1994 and 1995. As a result, SBA was not
given timely information to make program decisions. The late reporting is detailed in the
following chart.



                               TIMELINESS OF REPORTS
                           FINANCIAL AND PROGRAMMATIC
                YEAR­                      REPORTS                  DAYS LATE
               QUARTER
                  1994-4      ANNUAL                                          27

                  1994-4      FINANCIAL STATUS SF 269 (FINAL)               670+

                  1995-1      FINANCIAL STATUS SF 269                        102

                  1995-4      FINANCIAL STATUS SF 269 (FINAL)                127

                  1995-1      FEDERAL CASH TRANSACTIONS SF 272                95

                  1995-4      COUNSELING &TRAINING                            15



                                               18

       The 1994 and 1995 SBDC Program Announcements provide the following reporting
requirements:

           The SF 272 “Report of Federal Cash Transactions” and SF 269 “Financial Status
           Report” are due 30 days after the end of each quarter with final reports due 90 days
           after the end of budget period.

           SBDC counseling and training reports (MIS Summary) are due quarterly within 30
           days after the end of applicable quarter.

           Annual Performance reports are due within 90 days after completion of budget
           period.


Recommendations:

       We recommend that the District Director of the Baltimore District Office require the
State Director of the Maryland SBDC to ensure that:

3A.	   Subcenters report program income accurately and use it to further SBDC program
       objectives.

3B.	   Financial and programmatic reports are submitted on a timely basis.


Auditee Response

       DBED cannot adequately address the issue of program income until information
requested from the Suburban Washington subcenter is received. Some financial and
programmatic reports were submitted to SBA late. There is insufficient information to
respond to the allegation that some reports were not submitted at all.


Evaluation of Auditee’s Response

       Absent any further response from DBED, we still believe that the Suburban
Washington subcenter did not always report program income as stated in the finding.
Documentation showing that two financial reports were not submitted was provided to DBED
on January 7, 1997.




                                              19

SBA Management’s Response

      The District Director of the Baltimore District Office agreed with our findings and
recommendations.


Evaluation of SBA Management’s Response

       The Baltimore District Office’s comments are responsive to our recommendation.




                                              20

                                                                 APPENDIX C





                 SUMMARY OF QUESTIONED COSTS

                                           1994       1995         TOTAL
FEDERAL
PAID VACATIONS FOR LTGF EMPL. SUBURBAN                 $2,483         $2,483
WASHINGTON
OVERPAID EMPLOYEE-LEAD CENTER                             $99            $99
IRREGULAR PROCUREMENT FOR PRINTING­                     $3,000         $3,000
SUBURBAN WASHINGTON
IMPROPER BILLING BY SUBURBAN WASHINGTON     $8,400                     $8,400
EXCESSIVE INDIRECT                                      $6,955         $6,955
   SUBTOTAL                                 $8,400     $12,537        $20,937
CASH MATCH
QUESTIONED TRAVEL LEAD CENTER                            $195           $195
EXCESSIVE COST FOR MEAL LEAD CENTER                       $29            $29
   SUBTOTAL                                              $224           $224
TOTAL QUESTIONED FEDERAL & CASH MATCH        $8,400   $12,761        $21,161
QUESTIONED IN-KIND CONTRIBUTIONS           $204,368   $152,253       $356,621
TOTAL OUTSTANDING QUESTIONED COSTS         $212,768   $165,014       $377,782
CORRECTIVE ACTION TAKEN DURING COURSE OF
AUDIT
STATE EMPLOYEE                              $79,941    $43,639       $123,580
INDIRECT LEAD CENTER                         $7,423    $21,042        $28,465
TOTAL CORRECTIVE ACTION                     $87,364    $64,681       $152,045
TOTAL QUESTIONED COSTS                     $300,132   $229,695       $529,827
                                                                       APPENDIX D





           CALCULATION OF REQUIRED REIMBURSEMENT

              1994                 FEDERAL       STATE MATCH            REQUIRED
                                   FUNDING       CASH   IN-KIND        REIMBURSE­
                                                                          MENT
TOTAL OUTLAYS CLAIMED BY MD
SBDC                                $1,203,159   $587,945   $619,089
REQUIRED CASH MATCH                              $601,580
CASH UNDERMATCH                                   $13,635
REQUIRED REIMBURSEMENT (X      )      ($9,090)     $9,090                      $9,090
NET OUTLAYS                         $1,194,069   $597,035
QUESTIONED COSTS                                   $8,400
NET CASH MATCH OUTLAYS                           $588,635
REQUIRED REIMBURSEMENT (X      )      ($5,600)     $5,600                      $5,600
NET OUTLAYS                         $1,188,469   $594,235
QUESTIONED IN-KIND MATCH                                    $204,368
NET IN-KIND MATCH                                           $414,721
REQUIRED IN-KIND MATCH                                      $594,235
IN-KIND UNDERMATCH                                          $179,514
REQUIRED REIMBURSEMENT (X ½)         ($89,757)    $89,757                     $89,757
NET OUTLAYS                         $1,098,712   $683,992   $414,720
LETTER OF CREDIT DRAWDOWNS          $1,082,228
DRAWDOWN AVAILABLE                    $16,484                                ($16,484)
TOTAL REQUIRED                                                               $87,963
REIMBURSEMENT
                                                                   APPENDIX E 





         CALCULATION OF REQUIRED REIMBURSEMENT

          1995             FEDERAL           STATE MATCH                REQUIRED
                           FUNDING           CASH IN-KIND              REIMBURSE­
                                                                          MENT
TOTAL OUTLAYS CLAIMED BY      $1,452,617      $915,231     $626,720
MD SBDC
REQUIRED CASH MATCH                           $726,309
CASH UNDERMATCH
(OVERMATCH)                                  ($188,922)
QUESTIONED COSTS                                $12,761
ADJUSTED CASH OVERMATCH                      ($176,161)    $176,161
NET CASH MATCH OUTLAYS                        $726,309
QUESTIONED IN-KIND MATCH                                  ($152,252)
ADJUSTED IN-KIND MATCH                                     $650,629
REQUIRED IN-KIND MATCH                                     $726,309
IN-KIND UNDERMATCH                                          $75,680
REQUIRED REIMBURSEMENT
(X ½)                          ($37,840)       $37,840                       $37,840
   SUBTOTAL                   $1,414,777      $764,149     $650,629
LETTER OF CREDIT              $1,452,617
DRAWDOWNS
DRAWDOWN AVAILABLE                    $-0­                                        $-0­
TOTAL REQUIRED
REIMBURSEMENT                                                               $37,840




                 SUMMARY OF TOTAL REIMBURSEMENT

                    1994   $87,963           APPENDIX D

                    1995   $37,840           APPENDIX E

                   TOTAL   $125,803
                                                                                                           APPENDIX F




                                           REPORT DISTRIBUTION

Recipient                                                                                            Number of Copies


General Counsel, Office of General Counsel . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


Associate Deputy Administrator for Economic Development . . . . . . . . . . . . . . . . . . . . . . . . . 1


Associate Deputy Administrator for Management and Administration . . . . . . . . . . . . . . . . . . 1


Associate Administrator for Small Business Development Centers . . . . . . . . . . . . . . . . . . . . . 3


District Director, Baltimore District Office . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Office of the Chief Financial Officer . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

